C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No.

MALLORY JONES and TROY A. MOSES,

Petitioners,
‘VS.

RAMONE LAMKIN, individually and in his official
capacity as Marshal of the Civil and Magistrate Court of
Richmond County, Georgia and AUGUSTA, GEORGIA,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the'above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b); being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3064 words; excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of December, 2019.
Lam duly authorized under the laws of thé State of Nebraska to administer oaths.

PATRICIA BILLOTTE

 

~ Gerieral.Notary i ,
State of Nebraska : Lu 6
‘My Commission Expires Nov 24, 2020 i

Notary Public

Affiant

39093
